                                        UNITED STATES GOVERNMENT

                                           M E M O R A N D U M



   DATE: January 9, 1997
REPLY TO
 ATTN OF: Inspector General

SUBJECT: Audit Report No. 97-1

      TO: Chairman


At the request of the Advisory Committee on Advanced Television
Services (the Committee), the Office of Inspector General (OIG)
conducted a close out audit of the Committee's checking account
maintained at Crestar Bank. The audit identified that the
account was formally closed on November 15, 1996. Since the last
audit performed by this OIG (OIG Report No. 95-2 dated December
19, 1994), all deposits to the account and disbursements were
identified as appropriate and supportable by adequate
documentation.


                           BACKGROUND

The Committee was empaneled by the Federal Communications
Commission (FCC) on October 1, 1987, to develop recommended
"policies, standards, and regulations that would facilitate the
orderly and timely introduction of advanced television services
in the United States." The Committee was chartered in accordance
with the Federal Advisory Committee Act (FACA), and its parent
committee was composed of 25 voting members, as well as an
unspecified number of ex officio members, throughout government
and industry.

FCC Directive FCCINST 1126.1, Subject: Federal Advisory
Committees, sets forth the FCC's policy, administrative
guidelines, and management controls relative to advisory
committees as required by the Federal Advisory Committee Act,
Stat.770, and Executive Order 12024 (42 FR 61445, 3 CFR, 1977
Comp., p. 158).

On October 17, 1989, Edward J. Minkel in his capacity as the
Managing Director, approved the Committee request for private
funding by employees or representatives who served on the
advisory committee. In doing so, the Managing Director placed a
number of specifications on the fund handling and accountability.
The Managing Director required that the bank (Crestar) handling
the Committee's account be given the name of four people listed
in the Reimbursement Procedures so that they would not honor any
other signatures. The Cash Handling Procedures of the Committee
required that "all checks be signed by any two of the four people
listed in the Reimbursement Procedures."

The Managing Director also instructed the Committee to perform a
monthly reconciliation of the cash receipts and cash
disbursements journal to the bank statements and ensure that an
annual audit be performed of the fund.

On September 2, 1992, auditors from the FCC's Common Carrier
Bureau (CCB), issued a report on the status of Committee funds
for the period of July 1, 1988 through the period ending June 30,
1992. This represented the initial audit of the Committee since
it's inception.

At the request of the Managing Director, auditors assigned to the
OIG assumed the responsibility for auditing the operations of the
Committee. In the ensuing report dated December 19, 1994, we
reported that "the internal controls and supporting records are
sufficient to provide necessary assurance that the funds of the
Committee are being properly maintained and expended in
conjunction with applicable regulations and guidelines."


                       PURPOSE AND SCOPE

This audit was performed to provide an independent assessment as
to the integrity of Committee funds. Audit emphasis was placed
on evaluating compliance with internal controls for handling
deposits and ensuring that all disbursements were valid and
supportable. All cash receipts, bank charges and disbursements
from the period of December 1, 1994 through November 15, 1996
were examined and traced back to monthly bank statements and
journals maintained by the bookkeeper.


                         AUDIT RESULTS
Results of the audit reflect that the internal controls
established over the Committee's funds were properly
administered. All cash receipts, interest accrued to the
account, bank charges and disbursements were reconciled from the
monthly bank statement to the accounting journals. On November
15, 1996, Crestar bank documented that the account had been
closed. Prior to the fund closure, all bank records were
reconciled with figures maintained by the Committee.




                                3
During the period of audit, deposits to the account were
restricted to monthly interest accrued on the balance maintained
in the account. Only five checks were drawn on the account
totaling $23,024.21. Three of the checks totaling $22,776.71
were issued to Wiley, Rein & Fielding (WR&F). Richard E. Wiley
of WR&F served as Chairman to the Committee. All reimbursements
to WR&F were supported by detailed records which reflected costs
incurred by WR&F in support of the Committee. These records were
reviewed and found to be consistent with appropriate utilization
of Committee funds (e.g. postage, telephones, couriers, fax
transmissions, travel, meals and incidentals).

The two remaining checks issued by the Committee totaling $247.50
were to the public accounting firm of Keller Bruner & Company
which was retained by the Committee to provide tax and accounting
services.


                          CONCLUSION

The auditors are of the opinion that the financial reports of the
Committee are reconcilable to the statements provided by Crestar
bank from the period of December 1, 1994 through the closure of
the account on November 15, 1996. Furthermore, it is our opinion
that all receipts and expenditures were appropriate within the
guidelines as promulgated in FCCINST 1126.1.




                               H. Walker Feaster III



cc:   Chief of Staff
      Managing Director
      Richard E. Wiley,
        Chairman Advisory Committee on ATS




                                 3
